TN
COCKLE

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 19-963
HENRY SCHEIN, INC.,

Petitioner,
v.

ARCHER AND WHITE SALES, INC.,

Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF ARBITRATORS,
ARBITRATION PRACTITIONERS, AND ARBITRATION SCHOLARS AS AMICI CURIAE IN
SUPPORT OF RESPONDENT in the above entitled case complies with the typeface requirement

of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text

and 10 point for the footnotes, and this brief contains 7885 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of October, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY-State of Nebraska
RENEE J, GOSS
My Comm. Exp. September 5, 2023

 

Kena. Q.Linoo Ondine. bale

Affiant

40233
